                          Closeout of M-92-120047




allecxations and two subjects were involved.        The first allesation




This case was closed out because we could find no link connecting
the allegations of misconduct ko any specific NSF award or
proposal.   Under NSF1s definition of misconduct in science and
engineering our jurisdiction is limited to misconduct that "has
occurred in proposing, carrying out, or reporting results from
activities funded by NSFn 45 C.F.R.     §689.1(b) .  Thus, these
allegations fall outside the jurisdiction of NSF Misconduct
Regulation, 45 C.F.R. Part 689.




Staff Associate, Oversight
                                           %8-.5-y4--k
                                            James J. Zwolenik
                                            Assistant Inspector General
                                              for Oversight


Assistant Counsel to the
  Inspector General



cc:   Inspector General
      AIG for Oversight
